 OFFICE OF INSPECTOR GENERAL
            Audit Report

Audit of Controls Over Railroad Medicare
             Contract Costs

             Report No. 11-06
              April 20, 2011




   RAILROAD RETIREMENT BOARD
                          EXECUTIVE SUMMARY

The Railroad Retirement Board (RRB), Office of Inspector General (OIG)
conducted an audit to determine if adequate oversight procedures and controls
over Railroad Medicare contract costs have been established. The audit focused
on controls over Palmetto GBA, LLC’s (Palmetto) direct labor timekeeping within
the Optical Character Recognition (OCR), Medical Review, and Customer
Service units. We also reviewed the effectiveness of the RRB’s contract
management and cost reimbursement processes during FYs 2008 and 2009.

The RRB-OIG conducted this audit at Palmetto’s Railroad Medicare offices
located in Augusta, Georgia and at the RRB’s headquarters in Chicago, Illinois
from June 2010 through February 2011.

Key Findings

The RRB-OIG identified the following weaknesses:

   •   Deleted customer service records, inaccessible medical review
       documentation, and inadequate OCR support for claims processed
       resulted in the RRB-OIG’s questioning of Railroad Medicare costs totaling
       approximately $7.1 million.

   •   Controls for ensuring that costs are applied to the proper accounting
       period in a timely manner were inadequate and the method of supporting
       direct labor cost adjustments was not sufficient.

   •   Railroad Medicare claims processing and cost data included significant
       inconsistencies which could impact the integrity of Railroad Medicare
       program costs.

   •   The OCR reporting system did not always track Railroad Medicare data
       correctly.

   •   Controls to ensure that timesheets are submitted by employees and
       approved by managers on a timely basis were not fully effective.

   •   The RRB has not established adequate oversight and controls over
       Railroad Medicare in accordance with its contract requirements.




                                        i
Key Recommendations

To address the identified weaknesses, we recommended that RRB officials:

   •   work with Palmetto to establish a procedure for maintaining the Customer
       Service Unit’s call volume records in accordance with contract archival
       requirements and require Palmetto to provide timely access to
       documentation supporting work performed by the Medical Review Unit;

   •   work with Palmetto to establish a reconciliation process between OCR
       total hours billed and total hours worked that will validate the integrity of
       costs reimbursed;

   •   review the questioned costs totaling $7.1 million and determine if they are
       allowable;

   •   require Palmetto to establish an accounting procedure for detecting and
       validating costs charged to prior fiscal years beginning with the start of the
       new contract year;

   •   require Palmetto to establish controls and procedures that will identify
       significant differences impacting Railroad Medicare claims volume, hours
       charged, and costs billed;

   •   work with Palmetto to determine why claims were incorrectly reported on
       the OCR report;

   •   require that Palmetto communicate timekeeping procedural requirements
       to all managers and employees and periodically perform random
       timesheet checks to ensure Palmetto complies with procedures; and

   •   develop improved contract oversight procedures and controls.


Management’s Response

The Director of Administration did not agree to review the questioned costs
totaling $3.1 million and $3.7 million incurred by the units during FYs 2008 and
2009. However, they agreed to take corrective action on 11 of our 15
recommendations and will conduct further analysis to determine how to address
the remaining recommendations. The full text of management’s response is
included in this report as Appendix III.




                                          ii
                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

 Background ....................................................................................................... 1
 Audit Objectives ................................................................................................ 2
 Scope ................................................................................................................ 3
 Methodology ...................................................................................................... 3

RESULTS OF AUDIT

 Underlying Support for Timekeeping Records Was Not Available for Review... 5
   Documentation Was Not Maintained............................................................. 5
   Documentation Was Not Accessible ............................................................. 6
      Recommendations ............................................................................................ 6
      Management’s Response ................................................................................ 7
      RRB-OIG’s Comments on Management’s Response .............................. 7

 Variances Were Identified Between Hours Billed and Employee Hours
 Recorded ........................................................................................................... 7
       Recommendations ............................................................................................ 8
       Management’s Response ................................................................................ 9
       RRB-OIG’s Comments on Management’s Response .............................. 9

 Procedures for Year End Adjustments Need to be Strengthened ..................... 9
   Contract Costs Incurred Were Applied to the Incorrect Fiscal Year .............. 9
   Direct Labor Costs Were Allocated to Employees Without Adequate
   Documentation ............................................................................................ 10
      Recommendations .......................................................................................... 10
      Management’s Response .............................................................................. 11
      RRB-OIG’s Comments on Management’s Response ............................ 11

 Significant Inconsistencies Exist When Comparing Claims Volume and Costs
 Billed ............................................................................................................... 11
     Railroad Medicare OCR Data ..................................................................... 12
     Railroad Medicare Paper Billing Data ......................................................... 12
        Recommendations .......................................................................................... 13
        Management’s Response .............................................................................. 13
        RRB-OIG’s Comments on Management’s Response ............................ 13

 Conflicting Data Was Generated by the OCR Reporting System .................... 14
       Recommendation ............................................................................................ 14
       Management’s Response .............................................................................. 14

                                                          iii
 Timesheet Submission and Approval Controls Need Strengthening ............... 15
      Recommendations .......................................................................................... 15
      Management’s Response .............................................................................. 15
      RRB-OIG’s Comments on Management’s Response ............................ 16

 Contract Oversight and Management Controls Need Improvement ................ 16
       Recommendation ............................................................................................ 17
       Management’s Response .............................................................................. 17

APPENDICES

 Appendix I - Summary of Questioned Costs ................................................... 18
 Appendix II - Sampling Methodology and Results ........................................... 19
 Appendix III - Management’s Response.......................................................... 21




                                                        iv
                               INTRODUCTION

This report presents the results of the Railroad Retirement Board (RRB), Office of
Inspector General’s (OIG) audit of the controls over Railroad Medicare contract costs.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act and the Railroad Unemployment Insurance Act. These programs provide income
protection during old age and in the event of disability, death or temporary
unemployment and sickness.

Railroad Medicare

In May 1966, the Social Security Administration delegated authority to the RRB for
administering certain provisions of the Medicare program for Qualified Railroad
Retirement Beneficiaries (QRRBs). These provisions included enrollment, premium
collection, and selection of a carrier to process Medicare Part B claims. The enactment
of Public Law (P.L.) 92-603 in October 1972 amended the Social Security Act and
granted the RRB jurisdiction over all QRRBs who were receiving both Railroad
Retirement and Social Security benefits.

The Railroad Medicare program is funded by the Centers for Medicare & Medicaid
Services (CMS). The RRB’s Office of Administration has been delegated responsibility
for the program’s claims processing contract management and administration. In
carrying out these responsibilities, the RRB’s contracting officer has the ability to deny
reimbursement if contract costs are inadequately supported.

Under the Inspector General Act of 1978, as amended, the RRB-OIG conducts audits
and investigations of alleged fraud, waste, and abuse within the Railroad Medicare
program.

Palmetto GBA, LLC

Since April 2000, the RRB has contracted with its nationwide contractor Palmetto GBA,
LLC (Palmetto) to process the Medicare Part B claims for QRRBs. The RRB’s contract
with Palmetto states that, “[t]he contractor shall perform all carrier functions for
individuals enrolled in Part B of the Railroad Medicare program throughout the United
States.”

During Fiscal Year (FY) 2010, Palmetto processed more than 10.2 million Railroad
Medicare claims, which represented approximately $870 million in payments for Part B

                                             1
medical services. For these Part B services, Palmetto was reimbursed $14.2 million
during FY 2010. In addition, the RRB’s Office of Programs has one Medicare Contract
Operations Specialist working onsite at Palmetto’s Augusta, Georgia office and one
working at RRB headquarters.

The RRB’s contract with Palmetto will be subject to competitive renegotiation during
2011. 1 When the process is completed, the Railroad Medicare contract will establish
new performance and administration requirements under the title of Specialty Medicare
Administrative Contractor (MAC).

During FY 2008, Palmetto began using a new timekeeping system to record and track
direct labor costs. Palmetto employees log into the system daily to record their hours
worked. The recorded labor hours are used to bill the RRB on a monthly basis. The
costs billed can be adjusted during the three-month period after each quarter. Proper
timekeeping controls are essential as Palmetto performs contract work other than
Railroad Medicare.

Palmetto’s Optical Character Recognition (OCR) Unit is responsible for proofing
information scanned from Railroad Medicare claim forms submitted by providers. The
Medical Review Unit conducts research and performs claims review to ensure that
payments made for covered services are medically reasonable and necessary for
treatment of the individual. The Customer Service Unit is responsible for responding to
phone and written inquiries from Railroad Medicare providers and beneficiaries.

Contract Management

The Government Accountability Office (GAO) has identified Medicare contract
management controls as a critical procurement concern. Direct labor represents a
significant reimbursable cost charged for administration of the Railroad Medicare
program. A critical responsibility for RRB management is to ensure that Palmetto’s
Railroad Medicare time for work performed is accurately recorded for reimbursement.


Audit Objectives

The objectives of our audit were to determine if adequate oversight procedures and
controls over Railroad Medicare contract costs have been established to ensure the
integrity of contract cost reimbursements and whether amounts billed were
appropriately supported.




1
    The fiscal or contract year for Railroad Medicare is October 1st through September 30th.

                                                      2
Scope

The audit focused on controls over Palmetto’s direct labor timekeeping within the OCR,
Medical Review, and Customer Service units. We also reviewed the effectiveness of
the RRB’s contract management and cost reimbursement processes during FYs 2008
and 2009.

A limitation on the scope of our audit procedures prevented us from completing all audit
steps required to fully respond to the audit objective. Access to supporting
documentation for the work performed by the Medical Review Unit was denied until after
the conclusion of fieldwork. Our audit could not determine whether the labor hours
billed reconciled with the work performed by the unit.


Methodology

To accomplish our objectives, we:

    • reviewed pertinent laws and regulations applicable to Palmetto’s timekeeping
      and direct cost reimbursement processes for the Railroad Medicare contract;
    • reviewed Palmetto’s and CMS’ policies and procedures, and select Palmetto
      accounting records;
    • assessed the adequacy of controls applicable to the timekeeping, budget, and
      direct cost reimbursement processes;
    • judgmentally sampled and reconciled business unit labor documentation
      supporting time charged with corresponding timekeeping records (refer to
      Appendix II);
    • analyzed Palmetto’s direct labor costs and evaluated Palmetto’s explanations
      related to cost and workload variances; and
    • interviewed RRB management and Palmetto officials responsible for Railroad
      Medicare contract administration, and Palmetto management and staff assigned
      to the work units.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. Except for the scope limitation
encountered, we believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We conducted our audit fieldwork at Palmetto’s Railroad Medicare offices located in
Augusta, Georgia and at the RRB’s headquarters in Chicago, Illinois from June 2010
through February 2011.
                                           3
                             RESULTS OF AUDIT

Our audit found that both the RRB’s and Palmetto’s contract cost controls were not fully
effective, Palmetto’s records of work performed were insufficient to support amounts
billed, and the RRB’s oversight and contract management procedures are inadequate to
fully ensure the integrity of Railroad Medicare cost reimbursements. We determined
that:

   •   the Customer Service Unit did not maintain adequate supporting documentation
       to fully reconcile labor hours worked with hours billed;

   •   access was denied to supporting documentation for work performed by the
       Medical Review Unit during the audit;

   •   records were insufficient to fully support Railroad Medicare costs billed for the
       OCR Unit;

   •   controls for ensuring that costs are applied to the proper accounting period in a
       timely manner were inadequate and the method of supporting direct labor cost
       adjustments was not sufficient;

   •   Railroad Medicare claims processing and cost data included significant
       inconsistencies which could impact the integrity of Railroad Medicare program
       costs;

   •   the OCR reporting system did not always track Railroad Medicare data correctly;

   •   controls to ensure that timesheets are submitted by employees and approved by
       managers on a timely basis were not fully effective; and

   •   the RRB had not established adequate oversight and controls over Railroad
       Medicare in accordance with its contract requirements.

These reported weaknesses and the significance of the costs involved directly impact
the transparency and accountability of the Railroad Medicare program. Questioned
costs as defined under the Inspector General Act totaling approximately $7.1 million,
are being referred to the RRB’s Office of Administration for additional review to
determine if they are allowable (refer to Appendix I). The details of our findings and
recommendations are discussed throughout the remainder of this report.




                                             4
Underlying Support for Timekeeping Records Was Not Available for Review

Palmetto’s Customer Service Unit did not maintain adequate support to fully reconcile
labor hours worked with hours billed. In addition, access was denied to supporting
documentation for work performed by the Medical Review Unit during the audit.

Documentation Was Not Maintained

The Customer Service Unit’s call volume reports, which provide detail to support the
work performed by the unit’s employees, including time expended on provider and
beneficiary telephone calls are deleted after four to six weeks. For FYs 2008 and 2009,
the unit charged 66,051 and 78,188 labor hours, respectively. Because the detailed call
volume reports have been deleted, the costs could not be substantiated.

The Federal Acquisition Regulations (FAR) 4.703 (a) states that, “. . . contractors shall
make available records, which includes books, documents, accounting procedures and
practices, and other data, regardless of type and regardless of whether such items are
in written form, in the form of computer data, or in any other form, and other supporting
evidence to satisfy contract negotiation, administration, and audit requirements of the
contracting agencies and the Comptroller General for—

       (1) 3 years after final payment or, for certain records . . . .”

In addition, FAR 4.703 (d) states that, “. . . If the information described in paragraph (a)
of this section is maintained on a computer, contractors shall retain the computer data
on a reliable medium for the time periods prescribed. Contractors may transfer
computer data in machine readable form from one reliable computer medium to
another. Contractors’ computer data retention and transfer procedures shall maintain
the integrity, reliability, and security of the original computer data. Contractors shall also
retain an audit trail describing the data transfer. For the record retention time periods
prescribed, contractors shall not destroy, discard, delete, or write over such computer
data.”

Palmetto officials do not maintain the Customer Service Unit’s detailed call volume
reports. They believe that maintaining employee timesheets approved by management
ensures full compliance with Medicare program requirements. RRB management did
not require Palmetto to maintain the reports and approved the reimbursements during
each year without adequate support.

Timesheets alone are not an acceptable form of documentation unless the underlying
work performed is adequately supported by records and maintained. If traceable
support is not maintained, RRB management cannot verify that work was performed by
Palmetto employees in support of the hours billed.




                                               5
Documentation Was Not Accessible

Medical Review Unit documentation was not accessible to support the number of claims
reviewed by each employee or the objectives and results of research projects
performed. For FYs 2008 and 2009, the Medical Review Unit charged 5,732 and 6,092
hours, respectively.

Pursuant to the Inspector General Act of 1978, Title 5, Subsection 6 (a), “. . . each
Inspector General, in carrying out the provisions of this Act, is authorized—

       (1) to have access to all records, reports, audits, reviews, documents, papers,
       recommendations, or other material available to the applicable establishment
       which relate to programs and operations with respect to which that Inspector
       General has responsibilities under this Act . . . .”

Documentation supporting work performed by the Medical Review Unit was requested
on multiple occasions but not accessible until after the close of fieldwork. Therefore, we
could not determine whether the labor hours billed reconciled with the work performed
by the unit.

Total questioned costs as a result of the call volume reports not being maintained for
the Customer Service Unit and the lack of available supporting documentation for the
Medical Review Unit were approximately $3.1 million and $3.7 million, which
represented a significant percentage (20% and 23%, respectively) of reimbursed
contract costs for FYs 2008 and 2009 (refer to Appendix I). 2

Recommendations

We recommend that RRB officials:

    1. review the total costs of $3.1 million and $3.7 million incurred by the Customer
       Service Unit and Medical Review Unit during FYs 2008 and 2009 and determine
       if they are allowable;

    2. work with Palmetto to establish a procedure for maintaining the Customer
       Service Unit’s call volume records in accordance with contract archival
       requirements to demonstrate that all costs claimed have been incurred; and

    3. require Palmetto to provide timely access to documentation supporting work
       performed by the Medical Review Unit.




2
 The percentages were determined by using the total Customer Service and Medical Review costs for FY
2008 and FY 2009 of $15.3 million and $16.1 million, respectively.

                                                 6
Management’s Response

In response to recommendation 1, the Director of Administration stated that RRB will
require Palmetto to demonstrate how their timekeeping and recordkeeping processes
comply with CMS standards. The target date for this corrective action is
September 30, 2011.

RRB-OIG’s Comments on Management’s Response

A demonstration of Palmetto’s timekeeping and recordkeeping processes for
compliance with CMS standards does not address the OIG’s recommendation to review
the questioned costs. We urge the RRB to review the questioned costs to determine
their allowability and compliance with the applicable requirements of the FAR.

In response to recommendation 2, the Director of Administration agreed to review the
recordkeeping requirements for call volume records and establish a definition of
adequate accounting records for contract compliance that will meet CMS standards.
The target date for this corrective action is December 31, 2011.

In response to recommendation 3, the Director of Administration stated that Palmetto
had agreed to provide timely access to its records.


Variances Were Identified Between Hours Billed and Employee Hours Recorded

Palmetto’s records of work performed are insufficient to fully support Railroad Medicare
costs billed for the OCR Unit. The monthly Railroad Medicare direct labor hours billed
by OCR Unit employees significantly varied from actual hours worked by OCR
employees as captured by the OCR Unit. When data was compared by employee,
hours billed exceeded hours worked by as much as 60%. The variances could not be
accounted for with available records.

The FAR 31.201-2(d) states that, "a contractor is responsible for accounting for costs
appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred, are allocable to the
contract, and comply with applicable cost principles in this subpart and agency
supplements. The contracting officer may disallow all or part of a claimed cost that is
inadequately supported."

The GAO recommends that documentation of transactions and other significant events
be complete and accurate and facilitate the tracing of the transaction or event and
related information from authorization and initiation, through its processing, to after it is
completed.




                                              7
When informed of the variances, Palmetto officials stated that the hours billed
included workload activities unrelated to the hours captured for the OCR Unit; however,
there is no underlying support for time spent working on these other activities. The total
monthly hours billed to the Railroad Medicare program could not be substantiated for
our period of review as follows:

                                OCR Unit Questioned Costs
                     OCR Direct OCR Direct       OCR Direct   OCR Costs Not
                       Labor      Labor Hours   Labor Hours    Accounted
                       Hours         Billed    Not Accounted      For 3
                      Worked                        For
            Jul 08        1,564      2,887        1,323 (46%)       $49,996
           Aug 08         1,592      2,397          805 (34%)       $24,270
           Sep 08           877      1,568          691 (44%)       $27,829
           Total          4,033      6,852        2,819 (41%)      $102,095
            Jul 09          860      1,206          346 (29%)       $17,037
           Aug 09           731      1,213          482 (40%)       $22,301
           Sep 09           461      1,145          684 (60%)       $27,106
           Total          2,052      3,564        1,512 (42%)       $66,444
                           Total OCR Costs Not Accounted For:      $168,539

Because the hours reported on the OCR Unit’s timesheets are not fully supported by the
underlying work performed, there is an increased risk that these unsubstantiated hours
could have resulted in misstated reimbursements. The Inspector General Act defines
questioned costs identified during an audit as those which are not supported by
adequate documentation. Total questioned costs during our period of review for the
OCR Unit were calculated as $102,095 and $66,444 for FY 2008 and 2009, respectively
(refer to Appendix I).

Recommendations

We recommend that RRB officials:

      4. review the OCR Unit’s total questioned costs of $168,539 and determine if they
         are allowable; and

      5. work with Palmetto to establish a reconciliation process between OCR total hours
         billed and total hours worked that will validate the integrity of costs reimbursed.




3
    Estimated total costs include overhead and employee benefits.

                                                     8
Management’s Response

In response to recommendation 4, the Director of Administration agreed to contact
Palmetto officials and conduct further review of the questioned costs. The Director of
Administration stated that due to the current RRB Specialty MAC procurement,
allowable costs determinations may not be completed before the end of the current
Medicare contract. If not completed, the Director of Administration will notify CMS and
request that special attention be given to whether these costs are allowable during the
Final Administrative Cost Proposal (FACP) closeout functions and the audit performed
by the Department of Health & Human Services (HHS) OIG. The target date for this
corrective action is September 30, 2011.

RRB-OIG’s Comments on Management’s Response

The FACP process results will not be available for several years and it’s not known
whether the scope of the HHS OIG’s next audit will specifically address our audit
concerns. We urge the RRB to take responsibility for reviewing these costs and
determining their allowability before the end of the current contract.

In response to recommendation 5, the Director of Administration agreed to contact
Palmetto officials and initiate discussions to develop a reconciliation process. However,
the Director of Administration stated that the reconciliation process may not be fully
developed prior to the end of the current Medicare contract due to the RRB Specialty
MAC procurement. The target date for this corrective action is September 30, 2011.


Procedures for Year End Adjustments Need to be Strengthened

Palmetto’s controls for ensuring that costs are applied to the proper accounting period in
a timely manner were inadequate and its method of supporting direct labor cost
adjustments was not sufficient.

Contract Costs Incurred Were Applied to the Incorrect Fiscal Year

After Palmetto completed its migration to a new timekeeping system on
October 1, 2007, 65 of 75 (87%) Railroad Medicare employees incorrectly recorded the
majority of their hours worked during FY 2008 to the FY 2007 project code. 4 This
misclassification of hours worked continued for approximately 2.5 months without
resolution and totaled 10,734 hours. After the error was discovered, adjusting entries
totaling $136,931 were required to correct the accounting records (refer to Appendix I).
However, the adjusted timekeeping records detailing the actual hours worked for each
employee could not be provided.

Palmetto officials explained that the errors occurred during its timekeeping system
migration. During this period, Railroad Medicare employees found the new system to
4
    Project code 11202: Manage Paper Bills/Claims.

                                                     9
be complex and did not fully understand how to record their time to the correct project
contract year. The incorrect timesheets were approved by Palmetto’s management and
its established accounting procedure, designed to identify hours billed to the incorrect
prior fiscal year, did not function effectively. If controls and supporting records are
inadequate to ensure that costs are applied to the proper accounting period, the
Railroad Medicare program may incur unsubstantiated costs.

Direct Labor Costs Were Allocated to Employees Without Adequate Documentation

During FY 2008, direct labor costs totaling $8,805 and representing 1,331 hours were
allocated to individual Railroad Medicare employees for FY 2007 work (refer to
Appendix I). Palmetto officials did not maintain adjusted timekeeping records or
traceable support which demonstrates that the costs were incurred by each employee.

The FAR 31.201-2(d) states that, "a contractor is responsible for accounting for costs
appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred, are allocable to the
contract, and comply with applicable cost principles in this subpart and agency
supplements. The contracting officer may disallow all or part of a claimed cost that is
inadequately supported."

Palmetto officials could not explain why these costs were allocated to individual
employees. If direct labor costs are not supported by adequate timekeeping records the
corresponding reimbursement cannot be substantiated.

Recommendations

We recommend that RRB officials:

  6.   review the adjustment totaling $136,931 and the allocation totaling $8,805 and
       determine if the questioned costs are allowable, and if other adjustments require
       review;

  7.   require Palmetto to establish an accounting procedure for detecting and
       validating costs charged to prior fiscal years beginning with the start of the new
       contract year;

  8.   work with Palmetto to improve the controls over management’s timesheet review
       process to ensure employees are billing the appropriate project code and year;
       and

  9.   require Palmetto to maintain readily available timekeeping support, which
       reconciles to the adjusting entries and prior year direct labor allocations,
       including, at a minimum, the appropriate timesheet revisions which document the
       days and hours impacted.



                                            10
Management’s Response

In response to recommendation 6, the Director of Administration agreed to request that
Palmetto review the figures and validate the findings to determine if continued
adjustments need to be made. The Director of Administration is awaiting completion of
the HHS OIG’s FY 2007 FACP audit for validation of the referenced adjustments and to
determine whether the questioned costs are allowable. The RRB plans to confirm the
dates of this CMS audit by September 30, 2011.

RRB-OIG’s Comments on Management’s Response

The Director of Administration is responsible for Railroad Medicare contract oversight
and should not rely solely on the results of the HHS OIG’s FACP audit as a means for
determining whether the questioned costs are allowable. The RRB is responsible for
ensuring the integrity of contract cost reimbursements and determining whether
amounts billed were appropriately supported.

In response to recommendation 7, the Director of Administration agreed to request that
Palmetto examine their current accounting system to determine if it captures and
validates costs charged to prior fiscal years on an annual basis. The target date for this
corrective action is December 31, 2011.

In response to recommendation 8, the Director of Administration agreed to re-examine
Palmetto’s controls over the review process and request improvement. The target date
for this corrective action is September 30, 2011.

In response to recommendation 9, the Director of Administration agreed to conduct a
review with Palmetto to ensure that their recordkeeping agrees with CMS standards.
The target date for this corrective action is December 31, 2011.


Significant Inconsistencies Exist When Comparing Claims Volume and Costs
Billed

Railroad Medicare claims processing and cost data included significant inconsistencies.
The data which reported Railroad Medicare paper claims processed, hours charged and
costs billed was inconsistent for the one project code 5 reviewed. These inconsistencies
were not identified during Palmetto’s variance analysis or by the RRB during its internal
reviews, and should be reviewed to ensure the integrity of the Railroad Medicare cost
data.




5
    Project code 11202: Manage Paper Bills/Claims.

                                                     11
Railroad Medicare OCR Data

The OCR Unit’s Railroad Medicare paper claims volume increased while billed hours
decreased. The number of Railroad Medicare claims processed by the OCR Unit
increased by 70% from 208,907 to 355,552 between July and August 2008; however,
the approximate hours billed by the OCR Unit decreased by 17% from 2,887 to 2,397
during the same time period.

The OCR Unit’s Railroad Medicare claims volume exceeded the total number of
respective paper claims processed during July-August 2008 and July-August 2009.
Because multiple units process paper claims, total OCR claims processed is expected
to be less than the total Railroad Medicare paper claims processed by all units.
Palmetto officials stated that pending claims would account for the differences.
However, data was not provided to substantiate the identified inconsistencies, as shown
in the following table:

       Period       Total Railroad             Railroad Claims                   Difference
                    Medicare Paper          Processed only by the              between Total
                        Claims                    OCR Unit                    Railroad Claims
                      Processed                                              Processed versus
                                                                               the OCR Unit
        Jul 08           206,852                            208,907                    (2,055)
       Aug 08            232,235                            355,552                 (123,317)
       Sept 08           247,767                            186,539                     61,228
        Jul 09           148,842                            170,404                   (21,562)
       Aug 09            145,712                            147,793                    (2,081)
       Sept 09           135,784                             94,743                     41,041

Railroad Medicare Paper Billing Data

Cost per paper claim processed increased unexpectedly over the 21 months reviewed. 6
Our trend analysis showed that total costs billed fluctuated within a consistent range
over the 21 months reviewed, while paper claims processed continued to decrease
during the same time period. 7 A prominent example occurred in August 2008 and 2009,
where total paper claims processed decreased by 37.3% from 232,235 to 145,712,
while total costs billed for paper claims processed increased by 31.6% from $172,019 to
$226,386. A correlation between total claims processed and total costs billed would be
expected but did not occur.




6
 The period of review was from January 2008 through September 2009.
7
 The volume of Railroad Medicare paper claims processed is expected to decrease over time primarily
due to electronic claims processing, generating lower total costs while maintaining per hour efficiencies.


                                                    12
The GAO’s Standards for Internal Control in the Federal Government recommend the
following control activities:

    • Managers need to compare actual performance to planned or expected results
      throughout the organization and analyze significant differences.
    • Activities need to be established to monitor performance measures and
      indicators. These controls could call for comparisons and assessments relating
      different sets of data to one another so that analyses of the relationships can be
      made and appropriate actions taken. Controls should also be aimed at validating
      the integrity of both organizational and individual performance measures and
      indicators.

Palmetto officials and RRB management have established a variance analysis
procedure; however, the inconsistencies identified could not be sufficiently explained.
The current process was not designed to identify and explain differences between the
number of paper claims processed, the cost per paper claim processed and total labor
costs billed. A lack of correlation between claims volume, hours charged, and costs
billed may indicate a problem with the accuracy of Railroad Medicare contract cost
reimbursements.

Recommendations

We recommend that RRB officials:

  10. work with Palmetto to identify the cause of the inconsistencies and initiate
      corrective actions; and

  11. require Palmetto to establish controls and procedures that will timely and
      effectively identify significant differences impacting Railroad Medicare contract
      performance and the integrity of claims volume, hours charged, and costs billed.

Management’s Response

In response to recommendation 10, the Director of Administration will review the
inconsistencies identified by the OIG with Palmetto. The Director of Administration
believes that the inconsistencies can be explained by the normal carryover of monthly
claims that have not been completed in the same month. The target date for this
corrective action is September 30, 2011.

RRB-OIG’s Comments on Management’s Response

The OIG considered the impact of the carryover as a possible explanation for the
inconsistencies. However, the explanation provided by the Director of Administration
and Palmetto did not distinctly identify the cause of the inconsistencies or alleviate our
concerns.

                                            13
In response to recommendation 11, the Director of Administration agreed to require
Palmetto to demonstrate that their controls and procedures are in compliance with CMS
standards. The target date for this corrective action is December 31, 2011.


Conflicting Data Was Generated by the OCR Reporting System

Palmetto’s OCR reporting system did not always track Railroad Medicare data correctly.
In August 2008, the OCR report, which records hours worked, reported conflicting data
between two fields for 6,685 paper claims reviewed. In this one instance, one field
indicated that the claim was categorized as Railroad Medicare and the other field
indicated that the claim belonged to another contract.

Section C.3.b of the RRB’s Medicare contract with Palmetto states that, “the contractor
shall separately identify claims processed under this contract for both CPE 8 and
reporting purposes from those processed under other Medicare Part B contracts.”

Palmetto officials identified a system field inconsistency as the cause for the data
discrepancy. Palmetto officials stated that the claims in question were processed in the
proper contract environment; however, these officials did not provide confirmation that
the reporting error had been corrected to ensure timekeeping accuracy.

If controls to segregate Railroad Medicare claims from other contract claims are not fully
functional, the RRB may be inadvertently charged for the processing of non-
Railroad claims.

Recommendation

We recommend that RRB officials:

     12. work with Palmetto to determine why these claims were incorrectly reported on
         the OCR report and implement appropriate corrective action to ensure reported
         data is accurate.

Management’s Response

In response to recommendation 12, the Director of Administration agreed to review the
reporting process with Palmetto to determine whether the process is adequate. The
target date for this corrective action is December 31, 2011.




8
    Contractor Performance Evaluation

                                            14
Timesheet Submission and Approval Controls Need Strengthening

Palmetto’s controls to ensure that timesheets are submitted by employees and
approved by managers on a timely basis were not fully effective. Our review of 42
timesheets selected for one project code 9 found that:

      •   Six (14%) timesheets were signed by the employee up to five hours prior to the
          completion of their last shift for the pay period.

      •   One (2%) timesheet was not approved timely by the manager. The timesheet
          was approved by the manager prior to the completion of the employee’s last shift
          for the pay period.

During the audit, Palmetto officials indicated that employees were instructed to sign-off
on timesheets 15 minutes prior to the end of their shift; however, the requirement has
not been documented. Palmetto’s procedures require that timesheets be approved the
Tuesday following the pay period ending date for full-time employees, and by Monday
following the pay period ending date for part-time employees.

Palmetto’s procedural requirements for timesheets have not been effectively
communicated and enforced. If timesheets are not signed off and approved timely,
hours may be incorrectly charged for work performed and inappropriately billed to
Railroad Medicare.

Recommendations

We recommend that RRB officials:

     13. require that Palmetto communicate timekeeping procedural requirements to all
         managers and employees to ensure timesheets are signed off and approved
         timely; and

     14. periodically perform random timesheet checks to ensure Palmetto complies with
         procedures.

Management’s Response

In response to recommendation 13, the Director of Administration agreed to require
Palmetto to review their procedures and issue directives reemphasizing the proper
timesheet approval process to management and employees, as appropriate. The target
date for this corrective action is September 30, 2011.

In response to recommendation 14, the Director of Administration will query CMS to
determine their review practices for attendance documentation. They will also
investigate such a process with Palmetto to determine the resources needed to perform
9
    Project code 11202: Manage Paper Bills/Claims.

                                                     15
increased levels of cost surveillance and evaluation. The Director of Administration will
request that HHS focus special attention to this issue during its FACP audits. The
target date for this corrective action is December 31, 2011.

RRB-OIG’s Comments on Management’s Response

In determining the resources needed to conduct random timesheet checks, the Director
of Administration should consider the established FAR guidance and contract
requirements.


Contract Oversight and Management Controls Need Improvement

The RRB’s Office of Administration has not established adequate oversight and controls
over Railroad Medicare in accordance with its contract requirements. The current
contract management process focuses on cost overruns, and places limited emphasis
on the underlying support for reimbursable costs.

The FAR, section 31.201-2 (a) states that “a cost is allowable only when the cost
complies with all of the following requirements:
       (1) Reasonableness.
       (2) Allocability.
       (3) Standards promulgated by the CAS Board, if applicable, otherwise, generally
       accepted accounting principles and practices appropriate to the circumstances.
       (4) Terms of the contract . . .”

The FAR 31.201-2(d) states that, ". . . the contracting officer may disallow all or part of a
claimed cost which is inadequately supported."

The FAR, section 52.216-7 (g) states that, “. . . At any time or times before final
payment, the Contracting Officer may have the Contractor’s invoices or vouchers and
statements of cost audited. Any payment may be— (1) Reduced by amounts found by
the Contracting Officer not to constitute allowable costs; or (2) Adjusted for prior
overpayments or underpayments.”

The RRB has not established adequate procedures for ensuring that sufficient
underlying support exists for Palmetto’s billed labor hours and contract cost
reimbursements. For example, to prove that costs are allowable, the records of work
performed by each unit must be validated for adequacy and maintained in accordance
with contract requirements. Without effective contract management controls, the
Railroad Medicare program may be incurring expenditures for unsubstantiated or
unwarranted labor costs.




                                             16
Recommendation

We recommend that RRB officials and the contracting officer:

  15. develop improved contract oversight procedures and controls that will ensure that
      Railroad Medicare billed labor hours are allowable and costs claimed for
      reimbursement are adequately supported and maintained in compliance with
      contract and FAR requirements.

Management’s Response

In response to recommendation 15, the Director of Administration agreed and stated
that a meeting in coordination with the solicitation of the Specialty Medicare
Administrative Contract (SMAC) for Part B services has been scheduled with CMS to
discuss multiple topics related to pre-award, post-award oversight, management
requirements, and best practices for the anticipated SMAC contract. The target date for
this corrective action is September 30, 2011.




                                          17
                                                                             Appendix I
                               APPENDICES
                         Summary of Questioned Costs

As defined by the Inspector General Act of 1978, Title 5, Subsection 5 (f) (1) “the term
"questioned cost" means a cost that is questioned by the Office because of—
       (A) an alleged violation of a provision of a law, regulation, contract, grant,
       cooperative agreement, or other agree-ment [sic] or document governing the
       expenditure of funds;
       (B) a finding that, at the time of the audit, such cost is not supported by adequate
       documentation; or
       (C) a finding that the expenditure of funds for the intended purpose is
       unnecessary or unreasonable . . . .”

Pursuant to Subsection 6 (a), “. . . each Inspector General, in carrying out the provisions
of this Act, is authorized—
       (1) to have access to all records, reports, audits, reviews, documents, papers,
       recommendations, or other material available to the applicable establishment
       which relate to programs and operations with respect to which that Inspector
       General has responsibilities under this Act . . . .”

Inadequate OCR support for claims processed, inaccessible medical review
documentation, and deleted customer service records encountered during the audit
resulted in the Office of Inspector General’s questioning of Railroad Medicare costs
totaling approximately $7.1 million.

                 FY 2008 Direct Labor Hours and Questioned Costs
     Business Unit              Finding          Direct Hours Questioned Costs
          OCR             Inadequate Support            27,402         $102,095
     Medical Review         Denial of Access             5,732         $302,712
    Customer Service    Records Not Maintained          66,051       $2,764,112
                 FY 2009 Direct Labor Hours and Questioned Costs
          OCR             Inadequate Support            14,256          $66,444
     Medical Review         Denial of Access             6,092         $327,424
    Customer Service    Records Not Maintained          78,188       $3,398,754
                                        Subtotal      197,721        $6,961,541
          FY 2008 Direct Labor Hour Adjustments and Questioned Costs
          Type                  Finding          Direct Hours Questioned Costs
  Incorrect Fiscal Year   Inadequate Support            10,734         $136,931
  Prior Year Allocation   Inadequate Support             1,331           $8,805
                                        Subtotal        12,065         $145,736
      Total Direct Hours and Questioned Costs         209,786        $7,107,277


                                            18
                                                                         Appendix II

                     SAMPLING METHODOLOGY AND RESULTS
                            Non-Statistical Sampling

We used non-statistical sampling to assess the effectiveness of OCR Unit
documentation supporting time charged for work performed with corresponding
timekeeping records. We also used non-statiscal methods to determine whether
timesheet submission and approval controls were effective.


Audit Objective

The objectives of our non-statistical sampling tests were to determine whether:

      •   the Railroad Medicare hours worked per the OCR system agreed to the costs
          billed by employee for the OCR unit; and

      •   the controls to ensure timesheets are submitted by employees and approved by
          managers timely are effective.


Scope

We selected our judgmental sample of Railroad Medicare employees who charged time
to the OCR system using the last three months of fiscal years 2008 and 2009. We
judgmentally selected 42 timesheets from 14 Railroad Medicare employees who
charged time in fiscal years 2008 or 2009 to project code 11202. 10


Review Methodology

We used judgmental sampling to reconcile Railroad Medicare OCR system reporting
data and costs billed. We selected and reviewed Railroad Medicare employee
timesheets for timeliness of input and management approval.




10
     Project code 11202: Manage Paper Bills/Claims

                                                     19
                                                                          Appendix II

Results of Review

Our judgmental sampling tests disclosed that:

   •   supporting records for Railroad Medicare OCR work performed did not agree
       with the costs billed for the OCR unit. The costs not accounted for were
       $102,095 and $66,444 for FY 2008 and 2009, respectively; and

   •   6 of 42 timesheets were signed prior to the completion of employee’s last shift
       and 1 of 42 timesheets was not approved timely by the manager.


Audit Conclusion

Our non-statistical sampling tests of OCR system reporting data disclosed that OCR
work performed is insufficient to fully support Railroad Medicare costs billed for the OCR
Unit.

Our non-statistical sampling tests of employee timesheets disclosed that controls to
ensure that timesheets are submitted by employees and approved by managers on a
timely basis were not fully effective.




                                           20
                                                                                  Appendix III
                                                                                FORM G-1151 (1-121

                                                               RAILROAD   RETIREM~~N'I'BOARU

                                                                April 7, 2011




The U.S. Railroad Retirement Board's contract 00RRB005 with Palmetto GBA, LLC for railroad
Medicare Part B services was awarded in April 2000. For the past ten (10) years, RRB has
monitored Palmetto's cost reimbursement submissions by evaluating their monthly Interim
Expenditure Reports (IERs) on the Cost Administrative Financial Management (CAFM)
system. RRB Medicare Program and Procurement staffs have evaluated cost expenditures
using the CMS standard practices of reviewing and assessing: (1) program management unit
cost (PMUC), which is the unit price per Medicare claim processed, and (2) the variances from
annual budget cost targets by functional area of performance, for both Program Management
(PM) and Medicare Integrity Program (MIP) functions. This cost and performance monitoring
and evaluating process has resulted in Palmetto's retum of administrative funds to CMS of
approximately $850,000 during FY 2010, $750,000 during FY 2007 and $180,000 (MIP Only)
during FY 2006. Palmetto also came in under budget in FY 2008 and FY 2009 by $206,598
and $618,169 respectively. RRB has, as has CMS program and procurement staff, relied on
HHS OIG audit staff, or their contracted audit staff, to perform post performance year audits of
the contractor's Final Administrative Cost Proposals (FACP) and eventually the closeout
settlement agreements for each contract year. These audits have finalized determinations of
both allowability and allocability of costs.

The RRB currently employs 2.1 FTEs to both measure and ensure contract performance and
to review and evaluate costs and expenditures on this contract. These FTEs are fully occupied
in performing the current levels of quality and cost assurance reviews. Notably the current
referenced contract with Palmetto is programmed to end during the 2nd quarter of FY2012 with
the planned operational start date of the new Specialty Medicare Administrative Contractor's
(SMAC's) base period performance of Railroad Medicare Part B services.




                                             21
                                                                                  Appendix III



1. review the total costs of $3.1 million and 3.7 million incurred by the Customer
Service unit and Medical Review Unit during FYs 2008 and 2009 and determine if they
are allowable;

Response: RRB will require Palmetto, by September 30, 2011, to demonstrate how their
timekeeping and recordkeeping processes comply with CMS standards.

2. work with Palmetto to establish a procedure for maintaining the Customer Service
Unit's call volume records in accordance with Contract archival requirements to
demonstrate that costs claimed have been incurred;

Response: Agreed. This office shall review recordkeeping requirements for call volume
records and determine the definition of adequate accounting records for contract compliance
purposes meeting CMS standards. The RRB plans to complete this review by December 31,
2011.

3. require Palmetto to provide timely access to documentation supporting work
performed by the Medical Review unit.

Response: Palmetto has agreed, in their April 2, 2011 response to the subject audit report, to
provide timely access to its records.


Reference: Variances were Identified between the Hours Billed and Employee Hours
Recorded

4. review the OCR unit's total questioned costs of $168,539 and determine if they are
allowable;

Response: Agreed. This office will contact Palmetto officials and further review the OIG
findings of questionable costs. However, due to the current RRB Specialty MAC procurement,
allowability determinations may not be completed prior to the end of the current Medicare
contract. If not, this office will notify CMS of the OIG findings and request that during the HHS
OIG audit and FACP closeout functions, special attention be given to the allowability of these
costs. Please note that the last CMS/RRB/Palmetto closeout settlement agreements for
Palmetto's FY 2002 through FY 2006 FACPs were finalized April 9, 2009 and the CMS
closeout for Palmetto's FY 2000 and FY 2001 FACP was completed on or about early 2008.

5. work with Palmetto to establish a reconciliation process between OCR total hours
billed and total hours worked that will validate the integrity of costs reimbursed.

Response:     Agreed. This office will contact Palmetto officials and pursue discussions to
develop such a process. However, due to the current RRB Specialty MAC procurement, the
full development of a reconciliation process may not be completed prior to the end of the
current Medicare contract.




                                             22
                                                                                 Appendix III




6. review the adjustment totaling $136,931 and the allocation totaling $8,805 and
determine if the questioned costs are allowable, and if other adjustments require
review;

Response: Agreed. The RRB views this event as an isolated occurrence due to the transition
to a new timekeeping system. This office will request Palmetto officials to review the figures
and validate the findings in order to discover if continued adjustments need to be made. Also,
this office is awaiting the completion of the HHS DIG's audit report of Palmetto's FY 2007
FACP for validation of these referenced adjustments and allowability of these costs. The RRB
plans to confirm the planned dates of this CMS Audit by September 30, 2011.

7. require Palmetto to establish an accounting procedure for detecting and validating
costs charged to prior fiscal years beginning with the start of the new contract year;

Response: Agreed. This office will request that Palmetto officials examine their current
accounting system and determine if it can and does capture and validate such costs on an
annual basis. The RRB plans to complete this review with Palmetto by December 31, 2011.

8. work with Palmetto improve the controls over management's timesheet review
process to ensure employees are billing the appropriate project code and year; and

Response: Agreed. This office will re-examine Palmetto's controls over the review process
and request improvement. The RRB plans to complete this review process and any applicable
requests for revisions by September 30, 2011.

9. require Palmetto to maintain readily available timekeeping support, which reconciles
to the adjusting entries and prior year direct labor allocations, including at a minimum
the appropriate timesheet revisions which document the days and hours impacted.

Response: Agreed. This office will review with Palmetto officials to ensure that proper
recordkeeping is in line with CMS standards. The RRB plans to complete this review prior to
December 31,2011.


Reference: Significant Inconsistencies Exist When Comparing Claims Volume and
Costs Billed

10. work with Palmetto to identify the cause of the inconsistencies and initiate
corrective actions; and

Response: This office will review with Palmetto officials the DIG identified inconsistencies to
determine if an adequate explanation can be provided by Palmetto. It should be noted,
however, that one cause of inconsistencies can be explained by examining the monthly claims
input and the monthly claims completed. Not all claims inputted in a particular month are


                                           23
                                                                                  Appendix III


necessarily completed that same month; there will be some carryover. RRB plans to complete
this review by September 30, 2011.

11. require Palmetto to establish controls and procedures that will timely and
effectively identify significant differences impacting Railroad Medicare contract
performance and the integrity of claims volume, hours charged, and costs billed.

Response: Agreed. This office will require Palmetto to demonstrate that their controls and
procedures comply with CMS standards. RRB plans to complete this by December 31, 2011.




12. work with Palmetto to determine why these claims were incorrectly reported on the
Peak report and implement appropriate corrective action to ensure reported data is
accurate.

Response: Agreed. This office will review the Peak reporting process with Palmetto officials
and determine the adequacy of the reporting process.         RRB plans to complete this
determination by December 31,2011.




13. require that Palmetto communicate timekeeping procedural requirements to all
managers and employees to ensure timesheets are signed off and approved timely; and

Response: Agreed. This office shall require that Palmetto officials review their procedures
and, as appropriate, issue directives to managers and employees re-emphasizing the proper
timesheet approval process. The RRB plans to complete this request and confirmation of
procedures by September 30, 2011.

14. periodically perform random timesheet checks to ensure Palmetto complies with
procedures.

Response: This office will query CMS to determine the CMS practices on attendance
documentation reviews. The RRB will investigate such a process with Palmetto officials and
make a determination what kind of additional resources may be needed by RRB to perform
increased levels of costs surveillance and evaluation. In addition this office will request that
HHS DIG pay special attention to this issue in its FACP audits. The RRB plans to complete
these tasks by December 31, 2011.




                                            24
                                                                                Appendix III




15. develop improved contract oversight procedures and controls that will ensure that
Railroad Medicare billed labor hours are allowable and costs claimed for reimbursement
are adequately supported and maintained in compliance with contract and FAR
requirements.

Response: Agreed. The RRB has issued solicitation RRB11R001 for Specialty Medicare
Administrative Contract (SMAC) for Medicare Part B Services. RRB scheduled a meeting with
CMS on multiple topics on both the pre-award and post-award oversight and management
requirements and best practices for the anticipated SMAC contract. The RRB plans to
conclude this work by September 30, 2011.


If you have any further questions regarding these responses, please do not hesitate to contact
Mr. Paul Ahern, of my Procurement staff at 312-751-7130.




                                           25
